WAIVER
Supreme Court of the United States
No. 20-1023
Jean Coulter

v.

Philip Ignelzi, et al.

(Petitioner)

(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by the
Court.
Please check one of the following boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my appearance as
Counsel of Record for the following respondent(s):
The Honorable Philip Ignelzi, the Honorable Ronald W. Folino, the Honorable Timothy P. O'Reilly
and the Honorable David N. Wecht.
I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain name change since
bar admission):
Signature: /s/ Michael Daley, Esquire
Date: February 11, 2021
(Type or print) Name

Michael Daley
Mr.

Ms.

Mrs.

Miss

Firm

Administrative Office of Pennsylvania Courts

Address

1515 Market Street, Suite 1414

City & State

Philadelphia, PA

Phone

215-560-6300

Zip

19102

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF PRO SE. PLEASE
INDICATE BELOW THE NAME(S) OF THE RECEIPIENT(S) OF A COPY OF THIS FORM. NO
ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Jean Coulter
602 Butler Crossing #3
PMB 172
Butler, PA 16001

Obtain status of case on the docket by phone at 202-479-3034 or via the internet at http://www.supremecourtus.gov. Have the
Supreme Court docket number available.

